XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
300 SOUTH SPRING STREET, SUITE 1702
LOS ANGELES, CA 90013

Public: (213) 269-6000
Telephone: (213) 269-6073
Facsimile: (916) 731-2122
E-Mail: Scott.Taryle@doj.ca.gov

November 12, 2020
Via Electronic Filing System
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
RE:

Deondre Staten v. Ronald Davis, Warden
Case No. 20-6210
Request for Extension of Time

Dear Mr. Harris:
This office represents respondent Ronald Davis in the above-captioned case. The petition
for a writ of certiorari was filed on October 27, 2020. The brief in opposition is due December 4,
2020. Pursuant to Rule 30.4, respondent respectfully requests a 31-day extension of time to
January 4, 2021, to file that brief.
An extension of time would better enable the preparation of a response that respondent
believes would be most helpful to the Court. Counsel for petitioner have stated that they would
not oppose this extension request.
Accordingly, I request that the due date for the brief in opposition to the petition for a
writ of certiorari be extended to January 4, 2021.
Sincerely,

For

cc: Norman James, Esq.
Jerry Newton, Esq.

/s/ Scott A. Taryle
SCOTT A. TARYLE
Supervising Deputy Attorney General
XAVIER BECERRA
Attorney General

